January 28, 2002

PATRICK R. DONAHOE
CHIEF OPERATING OFFICER AND EXECUTIVE VICE PRESIDENT

SUBJECT:	 Audit Report - Disposal of Excess Real Property
          (Report Number CA-AR-02-002)

This report presents the results of our audit of the disposal of excess real property,
(Project Number 00HA049FA000). This was a self-initiated audit. The objective of our
audit was to determine if Postal Service real property was being utilized or reported for
disposal if it was not.

The audit revealed 30 properties purchased for $45 million that were not developed and
utilized by the Postal Service and had not been referred for disposal. During our audit,
one property was returned to the original owner and 12 properties purchased for
$5.3 million were referred to Realty Asset Management for disposal. Two of the
12 properties were sold for a total of $182,000. The remaining properties have an
estimated total value of $4.1 million as of December 13, 2001. We agree with
management’s decision to refer the properties for disposal. This action will result in a
better use of funds of $4.1 million.

We recommended management review all properties, including the remaining
properties for $39.6 million and dispose of those properties which are not needed.
Management agreed with the recommendation to review undeveloped and unused
properties. However, they stated the recommendation should be reworded to require
the areas, not districts to review undeveloped properties. Management further stated
they would request the areas to review all undeveloped and unused real properties, and
by the end of fiscal year 2002, advise Realty Asset Management of those properties
that should be disposed. Management’s comments are responsive to our concerns.
Management’s comments and our evaluation of these comments are included in the
report.
We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions, or need additional information, please contact Lorie Siewert,
director, Contracts and Facilities, at (651) 855-5856, or me at (703) 248-2300.



John M. Seeba
Assistant Inspector General
 for Financial Management

Attachment

cc: Keith Strange
    Rudolph K. Umscheid
    David W. Eales
    Randy W. Alder
    John R. Gunnels
Disposal of Excess Real Property                                     CA-AR-02-002



                                   TABLE OF CONTENTS

Executive Summary                                                        i

Part I

Introduction                                                            1

    Background                                                          1
    Objective, Scope, and Methodology                                   1
    Prior Audit Coverage                                                2

Part II

Audit Results                                                           4

    Excess Property Was Not Referred for Disposal                       4
     Unused Real Property Costing $39.6 Million Not Considered for      4
      Disposal
    Recommendation                                                      6
    Management’s Comments                                               6
    Evaluation of Management’s Comments                                 7

                                                                        8




                                                                        9




Appendix C. Management’s Comments                                      10





                                      Restricted Information
Disposal of Excess Real Property	                                                   CA-AR-02-002



                                    EXECUTIVE SUMMARY
Introduction                  This audit report presents the results of our review of the
                              Postal Service's disposal of excess real property. The audit
                              was self-initiated to determine whether real property was
                              utilized, and if not, referred for disposal. Specifically, this
                              audit focused on real properties purchased through the
                              Postal Service's advanced site acquisition and land banking
                              processes.

Results in Brief
             The audit revealed 30 properties purchased for $45 million
                              that had not been developed and utilized – one for almost
                              18 years. The Postal Service did not use these properties,
                              in part, because operational requirements changed and
                              budget constraints prevented development of the property.
                              Also, these properties were not reported to Realty Asset
                              Management for disposal. During our audit, one property
                              was returned to the original owner and 12 properties
                              purchased for $5.3 million were referred to Realty Asset
                              Management for disposal. Two of the properties were sold
                              for a total of $182,000. The remaining properties have an
                              estimated total value of $4.1 million as of December 13,
                              2001. The properties individually range in value from
                              $10,100 to $2.5 million. Referring the properties to Realty
                              Asset Management for disposal will result in a better use of
                              funds of $4.1 million. Additionally, because of the Postal
                              Service's restrictions on capital investments, all
                              undeveloped and unused real properties, including the
                              remaining 17 properties covered in our audit should be
                              reviewed to determine if they are candidates for disposal.
                              Efficient and economical disposal of unused property could
                              provide additional financial resources for the Postal Service.

Summary of	                   We recommended Postal Service management require a
Recommendations	              review of all undeveloped real property and refer those
                              properties that are no longer needed to Realty Asset
                              Management to begin the disposal process.

Summary of                    Management agreed with the recommendation to review
Management’s                  undeveloped and unused real properties, but stated that the
Comments                      areas, not districts, should refer excess properties to Realty
                              Asset Management to begin the disposal process.
                              Management stated they would request the areas to review
                              all undeveloped and unused real properties, and by the end
                              of Quarter 4, fiscal year 2002, advise Realty Asset


                                                  i
                                       Restricted Information
Disposal of Excess Real Property                                                CA-AR-02-002



                              Management of those properties that should be disposed of.
                              Regarding management’s assertion that prior comments
                              were not incorporated into the draft report, we acknowledge
                              the oversight. We have now fully addressed those
                              comments and made revisions as appropriate.
                              Management’s comments, in their entirety, are included in
                              Appendix C of this report.

Overall Evaluation of         Management’s comments are responsive to our concerns
Management’s                  and address the issues identified in this report.
Comments




                                                  ii
                                       Restricted Information
Disposal of Excess Real Property                                                                          CA-AR-02-002



                                               INTRODUCTION
Background                         Generally, property for new or expanding facilities may not
                                   be acquired until the full construction project is approved.
                                   However, Postal Service policy allows for advance
                                   acquisition of property as long as there is minimum risk of
                                   loss to the Postal Service.

                                   This strategy can also be adopted when expansion of an
                                   existing Postal Service facility is probable. In such a case,
                                   the Postal Service uses the concept of land banking1 to
                                   ensure that property is available for future Postal Service
                                   facility development.

                                   Chapter 4, Sections 467 and 468 of the August 1996
                                   edition of the Realty Acquisition and Management
                                   Handbook (RE-1), outlines the policies, procedures, and
                                   guidelines for both advanced site acquisition and land
                                   banking alternatives. The General Investment Policies and
                                   Procedures Handbook (F-66), and Capital and Program
                                   Evaluation Instructions also provide guidelines for these
                                   transactions. The Administrative Support Manual, updated
                                   January 11, 2001, stipulates what action must be taken
                                   when property is not developed, or identified as excess
                                   inventory.

Objective, Scope, and              Our objective was to determine if Postal Service real
Methodology                        property was needed and being utilized and, if not, was
                                   reported for disposal. Specifically, this audit focused on real
                                   properties purchased through advance site acquisition and
                                   land banking.

                                   To accomplish our objective, we reviewed records from the
                                   Postal Service Facilities Management System and records
                                   from the Realty Asset Management Office. We reviewed
                                   Postal Service policies and procedures, and headquarters
                                   directives related to advance site acquisition and land
                                   banking.




1
 Land banking involves the identification, evaluation, selection, and purchase of property in areas where there is a
projected future operational need, but the specific project is not identified in the Five-Year Capital Investment Plan.
Properties are considered for land banking in locations where there is a scarcity of land or where future expansion
opportunities exist.



                                                           1
                                                Restricted Information
Disposal of Excess Real Property                                                     CA-AR-02-002




                              Our audit universe consisted of 454 Postal Service
                              properties purchased between January 1, 1970, and
                              December 31, 2000, for $150 million. We conducted field
                              visits at 11 facilities service offices: Atlanta, Capital Metro,
                              Columbia, Dallas, Denver, Great Lakes, Kansas City, Mid-
                              Atlantic, New York, Pacific, and Windsor.

                              We reviewed and researched real property files and held
                              discussions with facilities service office officials. We sent
                              letters to 32 districts regarding properties that were
                              identified as undeveloped to determine if the properties
                              could be identified as excess.

                              This audit was conducted from September 2000 through
                              January 2002 in accordance with generally accepted
                              government auditing standards and included such tests of
                              internal controls as were considered necessary under the
                              circumstances. We discussed our conclusions and
                              observations with appropriate management officials and
                              included their comments, where appropriate.

Prior Audit Coverage          No prior Office of Inspector General (OIG) reviews on
                              utilization of space or disposal of excess real properties
                              have been performed. However, the following General
                              Accounting Office (GAO) reports have been issued
                              addressing the subject matter of our review:

                              Postal Service Conditions Leading to Problems in Some
                              Major Purchases (GAO/GGD-96-59, January 1996),
                              addressed the Postal Service's purchasing program. This
                              report identified seven purchases that did not reflect
                              favorably on the Postal Service's procurement policy. One
                              of the purchases identified was a site that was acquired in

                                                             , which was unusable because
                              of toxic contamination. The purchase of this property was
                              later rescinded with the Postal Service receiving the sale
                              price plus interest. According to the report, problems with
                              real estate transactions were apparently due to shortcutting
                              important integrity safeguards through a mistaken sense of
                              urgency. Management indicated it had taken steps to
                              correct any violations of policy or safeguard and to prevent
                              recurrence.




                                                   2
                                        Restricted Information
Disposal of Excess Real Property                                                   CA-AR-02-002




                              U.S. Postal Service Deficiencies Continue While Antelope
                              Valley Project Status Remains Uncertain (GAO/GGD-99-
                              147, August 1999), addressed the acquisition of land in

                                                          . According to the report, in
                              October 1991, while the overall project was still under
                              development and review, the Postal Service acquired a

                              25-acre site                                , at a cost of $6.5
                              million using its advanced site acquisition procedures. Also,
                              the report stated that as of July 1, 1999, the project was on
                              hold and the land could remain unused for several more
                              years unless action was taken. The report included a
                              recommendation that the postmaster general take action to

                              determine whether the site in                            ,
                              should be retained, and to ensure the project was
                              considered in the appropriate funding and approval process.

                              Management stated that the                      , project
                              would be considered along with other such facilities during
                              the next round of project reviews and prioritization.




                                                  3
                                       Restricted Information
Disposal of Excess Real Property                                                    CA-AR-02-002



                                      AUDIT RESULTS

Excess Property Was           We found the Postal Service does not need some of its real
Not Referred for              property and had not referred these properties for disposal.
Disposal                      Specifically, we reviewed the Postal Services’ purchase of
                              30 real estate sites for $45 million under the advanced site
                              acquisition and land banking programs. One of these
                              properties was purchased as far back as 1984. We
                              determined that 13 of the 30 properties were excess. One
                              property, which was donated to the Postal Service, should
                              be returned to the original owner. Twelve properties,
                              purchased for $5.3 million, should be disposed of by Realty
                              Asset Management.



                              The Postal Service did not use these properties in part,
                              because operational requirements changed and budget
                              constraints prevented development of the property. During
                              our audit, 12 properties purchased for $5.3 million were
                              reported to Realty Asset Management for disposal as
                              excess property. Two of the twelve properties were sold for
                              $182,000. Two other properties did not have an estimated
                              value in the Facilities Asset Management Program. The
                              remaining eight properties have an estimated market value
                              of $4.1 million as of December 13, 2001. These properties
                              individually range in value from $10,100 to $2.5 million.


                              The property located in                                , was
                              donated in June 1992 to the Postal Service as the site for a
                              new Postal Service facility. The donation agreement
                              contained a "reverter clause," which stipulated, if the
                              property was not developed within 18 months from the date
                              of acceptance of the property by the Postal Service, the
                              property would revert back to the original owner. Postal
                              officials stated the current residents, in response to
                              community contact regulations, indicated they did not want
                              to use this property for their new post office. As a result, the

                                                returned the property to the original owner.

Unused Real Property          Postal Service officials have not determined whether the
Costing $39.6 Million         remaining 17 properties (See Appendix B for a list of
Not Considered for            properties), valued at $39.6 million should be excessed and



                                                  4
                                       Restricted Information
Disposal of Excess Real Property	                                                                   CA-AR-02-002



Disposal	                        considered for disposal. These properties were listed on
                                 the Five-Year Capital Investment Plan and identified for
                                 future development. However, we believe the current
                                 freeze on capital projects may make future use of these
                                 properties unlikely. Also, we noted that no contracts have
                                 been awarded to develop these properties.


                                 For example, the                                 , site was
                                 purchased in 1991 for $47,200 with the intention of building
                                 a new post office. However, management advised us that
                                 the current lease rate on the existing post office in

                                                                 was so low that a cash flow
                                 analysis2 would not support the capital investment of
                                 building a new office. Management also stated that the
                                 current lease is valid until 2004 and a new facility would only
                                 be184 square feet larger than the existing post office.


                                 In addition,                               ,
                                 site was purchased in 1991 for $6.5 million under the
                                 advanced site acquisition program for a new mail
                                 processing facility. According to district management, this
                                 site is needed since the population growth rate in

                                                                is increasing. However, we
                                 believe, due to the freeze on capital projects, the Postal
                                 Service should review the need for this property. In this
                                 regard, we noted Section 517.11 of the Administrative
                                 Support Manual 13, requires periodic review of real property
                                 to determine whether it is still needed or can be referred for
                                 disposal.

                                 The following table shows properties, by facilities service
                                 office, identified for future development that should be
                                 reviewed and considered for disposal.




2
 A cash flow analysis itemizes investments and costs/savings in order to determine the return on investment and net
present value of implementing the project.



                                                         5
                                              Restricted Information
Disposal of Excess Real Property	                                                  CA-AR-02-002




*Difference due to rounding

Recommendation                 We recommend that the chief operating officer and
                               executive vice president:

                               1.	 Require areas to review all undeveloped and unused
                                   real properties, including the remaining 17 properties
                                   purchased for $39.6 million, and refer any excess
                                   properties to Realty Asset Management to begin the
                                   disposal process.

Management’s                   Postal Service management stated they previously provided
Comments                       comments to an earlier draft and are now formalizing them
                               because no changes were made.

                               Overall, management agreed with our recommendation to
                               review undeveloped and unused real properties. However,
                               they stated the recommendation should be reworded to
                               require the areas, not districts, to review undeveloped and
                               unused real properties and refer any excess properties to
                               Realty Asset Management to begin the disposal process.


                                                   6
                                        Restricted Information
Disposal of Excess Real Property                                                 CA-AR-02-002



                              Management stated they would request the areas to
                              complete the review of properties by the end of Quarter 4,
                              fiscal year 2002.

                              Postal Service management also provided additional
                              suggestions for improvement to selected language used in
                              the report.




                                                  7
                                       Restricted Information
Disposal of Excess Real Property                                              CA-AR-02-002




Evaluation of                 Management’s comments are responsive to our concerns.
Management’s                  Based on management’s comments, we revised the
Comments                      recommendation to require the areas to review undeveloped
                              and unused real properties and to refer any properties to
                              Realty Asset Management to begin the disposal process.

                              We also addressed each of management’s additional
                              comments and incorporated suggested changes where
                              appropriate.




                                                 8
                                      Restricted Information
Disposal of Excess Real Property                            CA-AR-02-002



                                   APPENDIX A




3
                                   .

4
                        .

                    5




                    .



                                              9

                                   Restricted Information
Disposal of Excess Real Property                            CA-AR-02-002




                    .




                                             10

                                   Restricted Information
Disposal of Excess Real Property                                CA-AR-02-002



                                    APPENDIX B




                                                            .



                                             11

                                   Restricted Information
Disposal of Excess Real Property                            CA-AR-02-002




                    .




                                             12

                                   Restricted Information
Disposal of Excess Real Property                            CA-AR-02-002



                  APPENDIX C. MANAGEMENT’S COMMENTS




                                             13

                                   Restricted Information
Disposal of Excess Real Property                            CA-AR-02-002




                                             14

                                   Restricted Information
Disposal of Excess Real Property                            CA-AR-02-002




                                             15

                                   Restricted Information
